WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20- 5619

STATE OF NORTH CAROLINA

JAMES ALLEN MINYARD
V.

( Respondent )

( Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check the appropriate boxes:

g

Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent (s ):

g

I am a member of the Bar of the Supreme Court of the United States.

ber of the Bar of this Court. Should a response be requested , the response
lam not presently a
will be filed by a Ba member.

^

Signature

11 September 20
Date:

Joseph L. Hyde
(Type or print ) Name
#

Mr.

[O] Ms.

[p] Mrs.

[O] Miss

NC Department of Justice
Firm

PO Box 629
Address

27602

Raleigh North Carolina
Zip

City & State

919-716-6500
Phone

jhyde @ ncdoj.gov
Email

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME (S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: John J. Korzen,

Wake Forest Law School, PO Box 7206, Winston-Salem, NC 27109

